<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                   
                         [H.A.S.C. No. 115-77]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                     MARINE CORPS READINESS POSTURE

                               __________

                              HEARING HELD
                             MARCH 6, 2018


                                     
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-415                     WASHINGTON : 2019                     
          
                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Andrew Warren, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Megan Handal, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Beaudreault, LtGen Brian D., USMC, Deputy Commandant, Plans, 
  Policies, and Operations, U.S. Marine Corps....................     3
Dana, LtGen Michael G., USMC, Deputy Commandant, Installations 
  and Logistics, U.S. Marine Corps...............................     6
McMillian, LtGen Rex C., USMC, Commander, Marine Forces Reserve, 
  and Commander, Marine Forces North, U.S. Marine Corps..........     5

                                APPENDIX

Prepared Statements:

    Beaudreault, LtGen Brian D...................................    27
    Dana, LtGen Michael G........................................    49
    McMillian, LtGen Rex C.......................................    36
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Gallagher................................................    58
    Mr. Scott....................................................    57

Questions Submitted by Members Post Hearing:

    Mrs. Murphy..................................................    61
                     
                     
.                     
                     MARINE CORPS READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                            Washington, DC, Tuesday, March 6, 2018.
    The subcommittee met, pursuant to call, at 4:35 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, good afternoon. This 
subcommittee will come to order.
    I am grateful to welcome each of you to this hearing of the 
House Armed Services Committee, Readiness Subcommittee, on the 
state of the Marine Corps readiness. Today, the subcommittee 
will hear from Marine Corps senior leaders regarding the Marine 
Corps fiscal year 2019 budget request and current state of 
Marine Corps readiness.
    Specifically, we want to explore the shortfalls, gaps, and 
critical challenges facing the Marine Corps readiness recovery 
plan and recognize the progress achieved thus far, and we want 
to gain a keen understanding of how the fiscal year 2019 budget 
request enables critical warfighting capabilities and life-
cycle sustainment. Ultimately, how does this budget request 
support the Marine Corps mission and those men and women who 
wear the uniform and are in harm's way?
    Overall, the fiscal year 2019 budget and Overseas 
Contingency Operations budget request for operation and 
maintenance include $8.2 billion for the Marine Corps Active 
and Reserve Components. However, this is approximately $216 
million below the amount authorized in fiscal year 2018 NDAA 
[National Defense Authorization Act].
    While we recognize these amounts do not include Marine 
aviation, which is included in the Navy's budget request, 
Marine aviation is also roughly flatlined for fiscal year 2019. 
This is somewhat troubling considering the fact that we hear 
readiness is the Commandant's priority and know the Marine 
Corps is struggling to improve aviation readiness, train toward 
full-spectrum capabilities, and increase capacity necessary to 
defeat the threats identified in the National Defense Strategy.
    Thirteen months ago, General Glenn Walters, Assistant 
Commandant of the Marine Corps, testified as follows: quote, 
``Current readiness shortfalls require additional operation and 
maintenance resources, and we have exhausted our internal 
options. Additional resources would facilitate exercises and 
training and correct repair parts shortfalls, while 
specifically addressing aviation specific operations and 
maintenance funding,'' end of quote.
    If there is still work to be done, we want to assist with 
your continued readiness recovery in areas such as amphibious 
operations, the aviation element, and the ground combat element 
in order to ensure you remain the Nation's expeditionary force 
in readiness. What are the impacts of your service's budget 
decisions on training, modernization, operations, and 
maintenance?
    It is our responsibility as members of this subcommittee to 
understand the readiness situation and how the budget request 
assists the Marine Corps in correcting deficiencies and 
restoring the capabilities this Nation needs. I look forward to 
hearing your thoughts and talking about concrete ways in which 
the committee can help.
    President Ronald Reagan frequently used the phrase, ``peace 
through strength.'' I agree with President Reagan, and I 
believe we must maintain a high state of readiness across our 
armed services in order to achieve that goal.
    Recognizing that your service routinely has 30,000-plus 
Marines deployed in 60 or more countries, it is imperative that 
Marines remain ready to deter and defeat the full spectrum of 
nonstate and end-state threats as described in the recently 
released National Defense Strategy.
    Needless to say, we have a lot of ground to cover, and I 
look forward to hearing from our witnesses today on the varying 
aspects of Marine Corps readiness.
    Before I introduce the witnesses, I am very grateful to 
turn to Ranking Member Madeleine Bordallo, the distinguished 
lady from Guam, for opening comments she would like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. And thank 
you to our witnesses for being here today.
    Gentlemen, the U.S. Marine Corps holds a special place in 
my heart and the hearts of the people of Guam. This year, we 
will be celebrating the 74th anniversary of our island's 
liberation from the Japanese during World War II by the 
Marines. The sacrifices of 1,190 young men lost during the 
battle are not lost on us.
    So today, the Readiness Subcommittee is meeting to examine 
the details of the Marine Corps fiscal year 2019 budget 
request, and I look forward to hearing from you, the senior 
Marine Corps leaders, on the current readiness of the Marine 
Corps Active and Reserve Components, the threat and the 
operational challenges that you face, your plans for addressing 
these challenges, and how you will manage your budget to 
overcome these challenges. Specifically, I hope to better 
understand how the fiscal year 2019 budget request will improve 
the readiness of the Marine Corps.
    As we begin to review the budget request, I am concerned 
about whether this budget appropriately balances near-term 
readiness recovery through the operation and maintenance 
accounts with long-term readiness through procurement and 
modernization.
    In terms of operations and maintenance spending, the fiscal 
year 2019 request is $214 million below the fiscal year 2018 
NDAA levels, and seeks only 80 percent of the depot maintenance 
requirement and resources and only 95 percent of the aviation 
spare parts requirement.
    So, gentlemen, we have heard about the readiness challenges 
that the Marine Corps is facing through various committee 
hearings and briefings over the past year. We have heard about 
the negative impact of continuing resolutions, as well as the 
shortfalls that exist in spare parts, reduced training hours, 
and critical personnel shortages.
    In light of the budget deal that was reached earlier this 
year, I am concerned that the fiscal year 2019 budget request 
fails to properly resource the accounts that help address these 
shortfalls and enable near-term readiness recovery.
    As I mentioned at the outset, the Marine Corps readiness is 
of special interest to Guam. We want to support your efforts to 
rebuild readiness and recovery from the budget uncertainty 
caused by sequestration and continuing resolutions. We hope 
that today's hearing helps provide more details on the Marine 
Corps near-term and long-term readiness recovery plans as we 
begin our work on the fiscal year 2019 NDAA.
    So, again, I welcome you all, and I look forward to the 
5,000 Marines that are slated to come to Guam.
    And I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo. And we know 
those Marines will be greeted warmly by the resident Member of 
Congress.
    I am pleased to recognize our witnesses today. I want to 
thank them for taking time to be with us. We have Lieutenant 
General Brian Beaudreault, the Deputy Commandant for Plans, 
Policies, and Operations, U.S. Marine Corps; Lieutenant General 
Rex C. McMillian, Commander, Marine Forces Reserve, and 
Commander, Marine Forces North; and Lieutenant General Michael 
G. Dana, the Deputy Commandant, Installations and Logistics, 
U.S. Marine Corps.
    Before I begin, I would like to remind the witnesses that 
we have your full statement for the record and that you 
summarize your comments for 5 minutes or less. And we are very 
fortunate that Mr. Drew Warren is going to be maintaining the 
time for all of us. And so we shall begin.
    General Beaudreault, thank you so much, and we look forward 
to hearing your opening statement.

     STATEMENT OF LTGEN BRIAN D. BEAUDREAULT, USMC, DEPUTY 
 COMMANDANT, PLANS, POLICIES, AND OPERATIONS, U.S. MARINE CORPS

    General Beaudreault. Chairman Wilson, Ranking Member 
Bordallo, and distinguished members of the subcommittee, it is 
a privilege and honor to be here today, along with our Marine 
Corps Deputy Commandant for Installations and Logistics, as 
well as our Commander of the Marine Forces, both Reserve and 
for the component for Northern Command.
    It is a real privilege to be able to talk about a total 
force readiness overview today. This afternoon, there is over 
184,000 Active Component, and over 3,000 Reserve Component 
Marines serving on Active Duty. Over 100,000 of those Marines 
are in the operating forces, of which one-third of those are 
routinely operating with allies and partners in 50 to 60 
countries on a given day, exclusive of our embassy Marines who 
are safeguarding 177 diplomatic facilities in 148 countries.
    The Marine Corps remains the Nation's expeditionary force 
in readiness. As described in the National Defense Strategy, we 
are an inside force that is operating within the contact and 
blunt layers, creating time and space for our national leaders. 
We are forward deployed and forward based, integrated with the 
Navy to project combat-credible forces who are assuring allies, 
maintaining open sea lines of communication, deterring 
aggression, and providing discrete capabilities that enable our 
partners to counter violent extremists.
    At home, the Navy and Marine Corps team is poised to 
respond to crisis, as evidenced by our recent response 
providing disaster relief in Texas, the Virgin Islands, and 
Puerto Rico. In addition to supporting current operations, we 
are developing a more lethal and resilient force that will be 
manned, trained, and equipped to fight and win against a peer 
adversary, while retaining capability to operate across the 
range of military operations.
    China and Russia are building their capacities and 
capabilities at rapid rates; rates which require Congress to 
provide steady and predictable funding in order for the joint 
force to retain qualitative technological overmatch in a 
broader military advantage over any competitor.
    I thank the Congress for the Bipartisan Budget Act that 
lifted the BCA [Budget Control Act] caps. Assuming a budget 
will pass following the 23 March expiration of the current 
continuing resolution, the Marine Corps will be adequately 
funded to pursue our three priorities: modernization, 
readiness, and manpower.
    Modernization is the foundation of our future readiness, 
and the most critical programs include investments in 
information warfare, long-range precision fires, command and 
control capabilities, increased lethality for our infantry 
formations, enhanced maneuver, protected mobility, and ground-
based air defense.
    In addition to USMC [United States Marine Corps] programs, 
it is essential that Congress continue to fully fund 
shipbuilding plans to achieve 38 amphibious [amphib] warships, 
of which 30 must be continuously available. Thirty 
operationally available amphibs allow us to train for the high-
end warfare and have the capability to deny an adversary from 
attaining their immediate objectives. Modernized connectors are 
also critical to moving and sustaining these combat-credible 
formations.
    Our top priority for readiness is to meet our milestones in 
support of our aviation recovery plan. We will steadily 
increase the number of Ready Basic Aircraft, sustain the 
improvement in flight hours per aircrew per month, which we saw 
a 14 percent improvement during fiscal year 2017, and we will 
meet a T-2O readiness standard by fiscal year 2020 for our 
squadrons.
    The most important asset to our Corps, to the Nation, and 
to our readiness is the individual Marine. As we grow the 
Marine Corps by another 1,400 Marines, we will enhance cyber 
information operations, special operations, and intelligence. 
We must ensure steady and consistent funding to ensure we 
retain the highest quality, most technically skilled Marines. 
We appreciate the support of Congress to maintain competitive 
compensation and benefits and high quality of life for our 
family members.
    The Marine Corps is committed to ensuring the professional 
development of our Marines, their education, their career 
development, in addition to their preparedness for the harshest 
combat through the most realistic training.
    Thank you, Mr. Chairman, and I look forward to the 
committee's questions.
    [The prepared statement of General Beaudreault can be found 
in the Appendix on page 27.]
    Mr. Wilson. Thank you very much, General Beaudreault.
    We now proceed to Lieutenant General McMillian. Please 
proceed with your opening statement.

 STATEMENT OF LTGEN REX C. McMILLIAN, USMC, COMMANDER, MARINE 
FORCES RESERVE, AND COMMANDER, MARINE FORCES NORTH, U.S. MARINE 
                             CORPS

    General McMillian. Chairman Wilson, Ranking Member 
Bordallo, and distinguished members of the committee, thank you 
for the opportunity to appear before you today to testify on 
behalf of the Commandant of the Marine Corps about the state of 
readiness of your Marine Corps Reserve. I am honored to be here 
today alongside Lieutenant General Beaudreault and Lieutenant 
General Dana. Also with me today is my force Sergeant Major, 
Scott D. Grade.
    I have been at the helm of the Marine Forces Reserve for 
2\1/2\ years, and I am pleased to inform you that your Marine 
Corps Reserve is thriving. Morale remains high, as evidenced by 
Reserve Component end strength climbing to 99 percent of our 
total requirement, a reenlistment rate increasing over 25 
percent over the past 3 years, all while the demand for Reserve 
support to combatant commander requirements continues to rise.
    The responsibility that we carry in Marine Forces Reserve 
is to be able to respond tonight and on a moment's notice with 
fully manned, fully trained, fully equipped, and superbly led 
compatible units that can instantly and seamlessly plug and 
play into Active Component formations. We have to expertly 
move, shoot, and communicate across the battlefield. It is our 
number one priority.
    The critical capabilities provided by Marine Forces Reserve 
to the total force increases the lethality of the Corps and 
contributes to the competitive advantage maintained over our 
adversaries.
    Today, your Marine Forces Reserve continues to augment and 
reinforce the Active Component as America's force in readiness 
by being forward-deployed and forward-engaged, while 
maintaining forces to support major contingency operations. At 
any given time, Marine Forces Reserve stands ready to provide a 
brigade-sized element of Reserve Marines and sailors, fully 
trained for combat operations to support the Active Component 
in order to form a total force ``fight tonight'' capability 
based on established timelines in support of a crisis or 
contingency response. The remainder of our force remains poised 
to augment and reinforce given appropriate amounts of pre-
deployment training based on their wartime mission assignments.
    I would like to leave this distinguished body with two 
thoughts on how continued support from Congress can result in a 
more lethal Reserve force capable of seamlessly integrating 
into the total force, postured to prevent conflict, yet ready 
to prevail in the next fight.
    Number one, Reserve Marines have 38 training days per year, 
and every scheduled event, from a rifle range to an 
administrative inspection, to vehicle maintenance, to a 
medical/dental stand-down, is preparation for combat. Missed 
training opportunities are often unrecoverable in terms of 
personnel, material, and training readiness, while morale and 
retention of the force, along with our gracious families and 
supporting employers, suffers.
    During the shutdown on January 20, two of three training 
days were lost. Some units had multiday or weeklong exercises 
which were canceled or cut short. Ultimately, almost 8,000 
personnel across 62 units had their drill weekend canceled or 
reduced resulting in lost training opportunities.
    I cannot afford to lose 1 day, 1 hour, or 1 minute of 
training for our Nation's most precious assets: our young 
volunteer men and women who make up your Marine Corps Reserve. 
Therefore, I cannot overemphasize how a lapse of appropriations 
negatively impacts readiness across the Reserve force. And I 
ask for your support through timely authorization and 
appropriations, which will further strengthen our readiness and 
ensure we remain ready to fight and win when called upon to do 
so.
    And number two, the Marine Corps Reserve benefits from the 
annual National Guard and Reserve equipment appropriation. 
However, an increase from 1 percent of this $750 million 
appropriation would further assist us in the procurement of 
critical shortfall items and modernization of equipment and 
systems as defined by law.
    I appreciate the opportunity to be here today, and look 
forward to your questions.
    [The prepared statement of General McMillian can be found 
in the Appendix on page 36.]
    Mr. Wilson. Thank you very much, General McMillian.
    And we now proceed to Lieutenant General Dana, and we 
welcome your remarks.

 STATEMENT OF LTGEN MICHAEL G. DANA, USMC, DEPUTY COMMANDANT, 
         INSTALLATIONS AND LOGISTICS, U.S. MARINE CORPS

    General Dana. Sir, ma'am, members, I am going talk to you 
verbally with my opening comments. I want you to know that I am 
neighbors with the Commandant. He owns two old cars. He has got 
a 1985 Ford Mustang, 5-liter, 1987 Chevy Camaro, and he is a 
really good mechanic, and he is laser-focused on logistics.
    The reason I bring that up is when the Commandant travels 
around the Marine Corps, he is a put-the-green-coveralls-on, 
get-underneath-the-vehicle, check-the-vehicle kind of leader. 
So what that means as his neighbor is it is uncomfortable for 
me, because he knows a lot about logistics and, again, he is 
laser-focused on it.
    So what we have done in the logistics field is, also, my 
Commandant is very interested in innovation. So we are talking 
about logistics innovation. And when I have had these 
discussions with the Commandant, what he has talked about, is 
if you look at logistics readiness, it is people, processes, 
and resources. We have got really good people, thanks to you. 
We have got the resources, thanks to you. But the processes, 
there is always room for improvement.
    So in terms of process improvement, what we did the other 
day is we culminated a 9-month planning event where we brought 
together 99 Marines; 20 and 25 civilian Marines; 20-25 
professors, academics, and students from University of 
California San Diego, and we had a hybrid logistics symposium.
    And what hybrid logistics is, is looking at the future 
battlefield, not wishing away logistics requirements, because 
we have a lot of big heavy stuff--tanks, artillery, AAVs 
[Assault Amphibious Vehicles], LAVs [Light Armored Vehicles]--
need a lot of maintenance. But then we are looking to future 
capabilities on the battlefield. Unmanned platforms, additive 
manufacturing, sense and respond logistics, and merging the 
two.
    So when we brought these Marines together, and I want to 
emphasize, these were young Marines. These were second 
lieutenants, captains and majors, corporals, sergeants, staff 
sergeants, who had looked at this problem in lift and 
distribution, supply and maintenance, and in a separate venue, 
medical, for over 9 months. And these young men and women from 
every walk of life had the opportunity to sit with the 
Commandant last Thursday for 5 hours. And they asked hard 
questions, and he asked hard questions. And what we were able 
to do with that event is look at readiness in the future and 
how we can make it better through process improvement. Either 
through ground equipment management, through equipment life-
cycle programs that were put into place. All these things were 
discussed.
    So the bottom line to this for the committee is we have got 
really good people looking at that future threat environment 
through a logistics lens making sure we are ready for the 
future.
    I look forward to your questions.
    [The prepared statement of General Dana can be found in the 
Appendix on page 49.]
    Mr. Wilson. And thank you very much, General Dana.
    And beginning right now, we are going to be strictly on 5 
minutes, beginning with me, Drew.
    And so even if it is from the beginning, I want to thank 
you for your service. And as I indicated earlier, I am so 
grateful for my family having a Marine heritage with my late 
father-in-law receiving the Navy Cross at Okinawa. But I am 
really grateful that my second son is an orthopedic surgeon at 
Beaufort Naval Hospital. And so, obviously, 98 percent of his 
clientele and patients are from Parris Island and Marine Corps 
Air Station. And so I am just really humbled to be in your 
presence.
    And this is a question for either Lieutenant General 
Beaudreault or Lieutenant General Dana. A primary concern has 
been and will continue to be the sustainment of the U.S. 
industrial base. It is for this reason that I have been 
particularly concerned about the Marine Corps announcement in 
August, on August 11, 2017, to order a sole-source contract up 
to 50,814 M27 infantry automatic rifles from Heckler & Koch, a 
German company.
    Do you believe that it is the best option to not compete on 
contract that could be as many as 50,814 rifles? Do you believe 
the U.S. defense industrial base could support such a request? 
And then finally, do you believe that issuing a sole-source 
contract for such a large number of rifles from an 
internationally based company poses any logistical readiness 
challenge in meeting the demand for not only rifles but 
supplementary parts?
    General Beaudreault. Mr. Chairman, thank you for the 
question. Relative to the M27 rifle in question, we currently 
have fielded 6,500 of those weapons. That weapon was fielded in 
2008 through an open competition before the contract was 
awarded. Our plan is to outfit our infantry Marines with that 
M27. And the quantity is--on our request for proposal that went 
to industry was for 15--1-5--15,000 additional, versus the 
50,000 as stated.
    It would cost probably $5.8 to perhaps I have seen a figure 
as high as $24 million to go through a recompetition for that 
weapon. There is no additional requirements. It is the purchase 
as is. And it is simply an increase in quantity of a weapon.
    And we also have a GAO [Government Accountability Office] 
report. GAO has looked at the data, looked at the request, and 
found everything to be within the legal parameters to pursue 
the sole-source contract, which at this time, we are in the 
last stages of setting a price with the vendor.
    Do I think the industrial base could support those types of 
quantities? Absolutely. But what we would experience by 
reopening a competition would be perhaps not being able to 
recover the additional money that would go into that 
competitive, that shoot-off for that rifle over the course and 
probably a 2-year delay in fielding that weapon to the rest of 
the infantry, which is common to the rest of the force now that 
we hope to achieve.
    So, sir, I am going to let General Dana provide any follow-
on.
    General Dana. Yes, sir. Not addressing your specific 
question, but you did talk about the industrial base. Just one 
thing I would like to bring to the committee's attention, as 
you look at our weapon systems, our heavy junk, AAVs, I was 9 
years old when that platform was introduced. LAVs, I was a 
freshman in college. So we have these capabilities that are 
getting old, and the industrial base's ability to provide 
parts--because you can give us money, and we appreciate that 
money, we always do--but to get the parts, it is a long lead 
time.
    Mr. Wilson. And with the 6,500 in service now, apparently 
that has not been a--the utilization has been proper?
    General Beaudreault. Yes, sir. What we have found, that 
rifle was also, you know, internal to the Marine Corps. We 
looked at some other options, and the M27 outperformed some of 
the other weapons that we are also considering. So it is a 
great weapon. It gets great reviews from Marines, and we were 
very eager to try to get it fielded as rapidly as we could.
    Mr. Wilson. And then a final question for General Dana. 
Does the Marine Corps have any specific ground equipment 
readiness challenges?
    General Dana. Sir, I would say with our legacy platforms, 
if you look at our tanks, AAV, LAVs, and artillery, those 
consume about 50 percent of our depot maintenance budget. And 
the biggest problem we are having, sir, is getting the parts, 
and we have long lead times for the parts. Now, there are some 
things that we need to cure internally on that in terms of 
process to get those parts faster from different providers, 
but, again, the industrial base has some issues.
    And what I would say is my senior enlisted advisor back 
here, Master Gunner Bowman, is a tank mechanic. And one 
workaround that we have, and I talked about additive 
manufacturing, is we are actually starting to produce some 
parts. And we have got to work through the legal piece and with 
the providers, but we brought--just real quick, because we 
always have training aids for the Marine Corps. We have a--this 
is a tank impeller. And just real quick, staff sergeant, west 
coast, young lady, was really upset that she couldn't get the 
tanks fixed. So what does she do? She takes like a coding 
class, learns how to design this on a polymer plastic printer. 
Then she brings it out to a place out in town that produces AM 
3D [additive manufacturing three-dimensional] printing metal, 
prints this part, installs the part at a significant cost 
savings. So we really believe this is the future.
    Mr. Wilson. Well, congratulations on that. And we do count 
on the enterprising nature of Marines to be that creative. And 
with barcode, too, the parts should be delivered instantly. So 
thank you very much.
    And, Congresswoman Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    General Dana, as I said in my opening statement, depot 
maintenance funding appears to be relatively flat between the 
2018 NDAA and the 2019 request.
    According to budget briefings the committee has received, 
the 2019 request only supports 80 percent of the depot 
maintenance requirement. The Marine Corps has consistently 
identified personnel and spare parts as primary limiting 
factors to increase depot and maintenance throughout, which in 
turn has affected operational availability ratings.
    So with that in mind, how will the 2019 budget request 
support increased depot and maintenance throughout in order to 
increase operational availability rates and readiness levels?
    General Dana. Yes, ma'am. Our ask, our bottom-line ask, 
would be to have $320 million per year for the depot. What does 
that provide us? It allows us to maintain a 2,080-person 
workforce, which is about 1,300 civilian Marines, and the rest 
are contract. But that allows us to keep that workforce. And it 
also allows us to keep the readiness rates at about--right now, 
we are high 80s, low 90s, in terms of readiness. But more money 
does equate to more readiness. It does in the long run.
    But what we owe you, ma'am, just real quick, is we are 
very, very focused on ensuring that we get the right equipment 
into the depot. So what we are doing is a program called 
conditions-based maintenance. Because in the past, you just put 
gear through cyclically based on several factors, but it wasn't 
always the condition, believe it or not. Now, we are going to 
the condition of the vehicle to feed that depot cycle.
    Ms. Bordallo. All right. I have a question now for General 
Beaudreault--is that right--Beaudreault?
    Despite the relatively little change in the Marine Corps 
O&M [operation and maintenance] request, the budget request 
does place an emphasis on procurement and modernization 
accounts. Now, can you please explain how the Marine Corps is 
balancing the service's near-term readiness needs when only you 
are buying new equipment and weapon systems? How will this 
budget request move the needle on the Marine Corps near-term 
readiness levels?
    General Beaudreault. I think it is twofold, ma'am. I think 
there is--under some of the near-term, it is survivability 
upgrade programs. It is enhancements to current legacy systems 
that simply have to be replaced as we bridge to technology that 
is being pursued for the future. Even the equipment we have 
today may not be completely relevant 20 years from now. So we 
are very keenly aware of that.
    So the money that is in the RDT&E [research, development, 
test, and evaluation] and in our research development processes 
are looking at future vehicles, such as the future amphibious 
reconnaissance vehicle, what capabilities does that need to 
bring. In the meantime, we have to ensure the survivability of 
the current equipment, so we are going through some upgrades 
and modernization.
    There is some near-term requirements for command and 
control, information warfare, things that are not only relevant 
for the future, but they are relevant today. So in some cases, 
the future is now.
    So we think we have it about right in terms of the 
additional people. I have mentioned the 1,400 and where they 
are going, 400 to special operations unit. The other 1,000 is 
not to really grow the Marine Corps; it is to round out some 
capability. Information warfare, intelligence, UAS [unmanned 
aerial system] operators, military information support, 
operations companies, things that we don't have today, but we 
will build here over the next few years.
    Longer term, the number one readiness driver long term is 
to fulfill our aviation procurement plan. It is sustainable 
funding to keep the F-35 program on track. It is to get the 53-
Kilo [CH-53K] on pace to make sure that we can reach fiscal 
year 2019 initial operating capability as we want to field that 
aircraft. So if we can replace our legacy airframes with modern 
airplanes, that is going to be a huge boost to us.
    As General Dana mentioned, the readiness of the ground 
community is actually quite good. We have two-thirds being 
ready by fiscal year 2022. The ground community is moving quite 
well in that regard in meeting the objective readiness rates we 
like to see. The aviation community, we are still moving 
forward on.
    So I think that is where that money is going to go. 
Modernization for airframes. New procurement is some ground 
equipment, particularly to make our infantry formations more 
lethal, long-range precision fires, rocket artillery, Group 5 
UAS that can perform intelligence, surveillance, reconnaissance 
as well as strike.
    So that is now. That is with a sense of urgency to field 
that kind of capability today.
    Ms. Bordallo. All right. Thank you, General.
    Are we having a second round, Mr. Chairman?
    Mr. Wilson. Yes.
    Ms. Bordallo. All right. I just have one more question. 
Thank you, and I yield back.
    Mr. Wilson. Thank you, Congresswoman Bordallo.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. I want to share my 
concerns as well to what Chairman Wilson mentioned at the start 
of, which is the sole-sourcing of the contract and a rifle that 
certainly the U.S. industrial base has the capability to 
manufacture. There are a tremendous number of U.S. 
manufacturers that make just as good a rifle as H&K, which H&K 
is also a good company. And I know that the U.S. industrial 
base could use the business. They have been hurt by this 
sequester just as you have been hurt by the sequester.
    And, General, one of the things that might help us is you 
said that it would cost between $5.8 and $24 million and 2 
years to simply rebid that procurement. Why?
    General Beaudreault. I think, sir, we would basically be 
starting over. And I am only using the data that is provided to 
me by Marine Corps Systems Command who oversees the procurement 
and new capability. We can come back with additional 
information----
    Mr. Scott. That is fair enough.
    General Beaudreault [continuing]. On detailing the costs 
that are broken down within that $5.8 million to some higher 
number, if you--we will take that for the record and be sure to 
provide a response to you, sir.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Scott. Absolutely. And thank you for that. And it is 
very frustrating to us on the committee to see the delay in 
getting the equipment to the soldiers, not just in the Marine 
Corps, but in the other branches as well. And then when we see 
the price that we end up paying per unit, if we factor it out, 
versus what, in some cases, could be bought--this rifle can't 
be bought off the shelf, but some of the things can. A night 
optic scope can be bought off the shelf. And what we end up 
seeing the final cost being versus what would be reasonable.
    So you have got a 2-year budget. I wish it was longer. I am 
glad it is--at the same time, I am glad that we have a 2018 and 
a 2019 budget number for you to work under. I would caution you 
just as I have cautioned the other leaders of the military, 
that that is a 2-year number, not a 3-year number or a 4-year 
number, and there is no guarantee with what follows in 2020 and 
2021. So getting the procurements done as soon as possible and 
as efficiently as possible I think is certainly in everybody's 
best interest.
    But, General Dana, the Marine Corps Logistics Base in 
Albany, obviously extremely important to us. You have got two 
depots in the country. Could you speak through the importance 
to maintaining a depot on the east coast and the west coast 
from an operational standpoint of the Corps and our country?
    General Dana. Yes, sir. Both those depots give us great 
flexibility and depth in terms of being able to fix and repair 
equipment. To give you an example would be--and, sir, we really 
appreciate the help with the money, the $88 million for LOGCOM 
[Logistics Command], for the rebuild after the LOGCOM was hit 
by the tornado. So that showed that once we had a little bit of 
degraded capability in Albany, we were able to push some of 
that work out to the west coast and do it at Barstow. That is 
an example of where you need that resiliency. And that work 
can't be done elsewhere.
    Also appreciate about $160 million in the future for the 
equipment that was damaged during the tornado. I want you to 
know, as we look at the equipment and the facilities, we are 
looking at modernizing. What I mean by that, is the MILCON 
[military construction], $43 million for the new warehouse, 
200,000 square feet, climate controlled. It will be able to do 
a better job of preserving the equipment that we have there. 
But we really appreciate the money for Albany. Thank you.
    Mr. Scott. Any suggestions as we go forward, as we go 
through the 2018 budget cycle, the rest of the 2018 budget 
cycle? One of our concerns is that we are effectively halfway 
through the budget year. Suggestions on what things we can 
bring forward in the most efficient manner or areas where 
flexibility could be potentially written into the law so that 
we are not forcing you to spend inefficiently?
    General Dana. Yes, sir. Because the challenge we are having 
now--and, again, we appreciate the money, but if you don't have 
the appropriation to go with it. For instance, right now at 
Albany, 2,212 pieces of equipment we have not been able to 
induct. So that is shoot, move, communicate equipment that we 
can't induct because we are going on previous funding levels. 
If we had this year's funding levels and we had the money, we 
could put that gear in for maintenance. And that is just going 
to get worse the longer we go.
    Mr. Scott. Gentlemen, thank you for your service. And I 
know that you share the frustrations as well as we do with the 
cost of the procurement and the timeliness of it, and so look 
forward to finding ways to remove that bureaucracy from getting 
the soldiers the equipment they need in a timely and efficient 
manner.
    Thank you. I yield.
    Mr. Wilson. And thank you very much, Congressman Scott.
    We now proceed to Congressman Joe Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to the 
witnesses.
    General Beaudreault, you mentioned the F-35s program, which 
I guess yesterday was a bit of a milestone day where there was 
delivery of some F-35Bs to a Marine expeditionary unit on the 
[USS] Wasp, which obviously was welcome news for the folks out 
there.
    General Beaudreault. Yes, sir. The 31st MEU out there in 
the Western Pacific is the first Marine expeditionary unit to 
actually go on what we are calling the spring patrol with the 
newest capability, soon to be followed by the 13th MEU also out 
through the Western Pacific into the Central Command region.
    Mr. Courtney. Great. So, you know, we have obviously been 
watching some of the issues that the GAO raised about, you 
know, whether or not the F-35 supply system and part system and 
maintenance system is really going to hopefully keep these 
planes in the air. And, you know, I am just sort of wondering, 
you know, now that you are a proud owner of some of those 
platforms, you know, whether or not that is something that, you 
know, the Marines are focused on in terms of, again, not making 
sure that this isn't going to be sort of a bust or a 
disappointment.
    General Beaudreault. I think General Rudder, our Deputy 
Commandant for Aviation, sir, has done everything he can to 
lean forward into the type of spares that would need to be put 
aboard and our--folks from our C4I [command, control, 
communications, and computers, and intelligence], Marines that 
are working in our C4I department, looking at the connectivity 
of that airframe into the ship, the forces ashore, and how it 
fits into the networked fire-control architecture that the Navy 
may have.
    So we have got a ways to go a little bit in some areas on 
the C2 [command and control] that goes with the platform. But 
in terms of the readiness to maintain that aircraft aboard the 
ship, I think we are in pretty good shape to include a spare 
engine.
    Mr. Courtney. Good. Thank you. You know, we obviously want 
to hear more about that as, you know, things unfold out there.
    So the fiscal year 2019 unfunded requirements list that was 
submitted by the Marine Corps is focused, it appears, almost 
exclusively on military construction and infrastructure. 
Congratulations, General.
    General Dana. The Commandant is my neighbor.
    Mr. Courtney. Yeah. But, you know, I mean, the question 
sort of that I have is just well--I mean, no offense, but, I 
mean, there are other issues that, you know, you also I think 
have to balance. And just are you comfortable that, you know, 
in terms of, you know, personnel, refurbishing equipment, 
vehicles, and aircrafts, you know, those assets are not going 
to get crowded out by those priorities?
    General Dana. I think two things, sir, before I turn it 
over to General Beaudreault. So what the Commandant stressed to 
us is you have to be good stewards of the taxpayer dollar. So 
in our internal processes for our equipment and all the 
maintenance, before we ask for more money, we need to make sure 
that we can show you that we have the right processes in place.
    Also, with the MILCON that we got, there were eight 
projects, $236 million; we have an $11 billion MILCON 
shortfall. So as the Commandant looked at the portfolio, that 
portfolio has taken the most risk over the past 10 years. So 
that was the decision to go with that unfunded priority list.
    Mr. Courtney. Right.
    General Beaudreault. Thank you. Sir, I would just add on to 
the very tail end of that, that some of that MILCON has gone to 
putting up hangars for F-35s and MV-22s. So it is completely 
understandable why we would be short in that area.
    In terms of the other accounts for operations and 
maintenance, I think we are funded fine for 2018 and 2019. It 
is not so much a matter of the money; it is a matter of the 
time to train in many cases. We are on a 1:2 deployment-to-
dwell. In order to build the kinds of comprehensive readiness 
just simply requires additional time. And so we are looking for 
ways to, you know, as the chairman works through the risk-to-
mission, risk-to-force, and how we are going to set the globe, 
may indicate some recovery that we might be able to have in 
terms of time to train. Again, with the focus on the primary 
threats addressed in the National Defense Strategy of countries 
to keep our eye on.
    So again, I think the accounts are funded well. And we are 
not anticipating any shortfalls in terms of our ability to 
train and modernize and retain high-quality people.
    Mr. Courtney. Thank you. I mean, those are very good 
explanations and helps us understand it better. So thank you 
for your testimony.
    With that, I yield back.
    Mr. Wilson. And thank you, Congressman Courtney.
    Now we proceed to Congressman Mike Gallagher of Wisconsin.
    Mr. Gallagher. Thank you, Mr. Chairman. Gentlemen, thank 
you for joining us today.
    Obviously, we have had recently the release of the National 
Security Strategy, the corresponding National Defense Strategy 
that talks a lot about the return of great power competition. 
For the last 17 years, the Marine Corps, in particular, has 
been engaged in less-than-great-power competition, irregular 
warfare, counterinsurgency, things like that.
    How do the Marine Corps operating concepts complement the 
new national strategic guidance, and in what ways might they 
need to be updated to be able to deter and potentially defeat 
near-peer adversaries? Just a small question.
    General Beaudreault. Sure. I will take that. I think by 
nature of having the Marine Corps as your expeditionary force 
in readiness, we are going to be forward deployed. We are 
already operating inside the adversaries', potential 
adversaries', A2/AD, anti-access/area denial windows.
    We will buy time and space for national decision makers to 
determine, you know, some of what the outcomes may be. We will 
be forward to blunt, to make sure the adversaries did not 
attain their immediate objectives. We are working very hard 
with the Navy.
    So if we just take the Pacific, for instance, we are 
working very closely with PAC [Pacific] Fleet, with Marine 
Forces Pacific, with PACOM [Pacific Command], in terms of 
bringing the kind of capability in the information domain where 
we are going to need to have supremacy, which is going to 
enable and underpin everything else we are trying to do in that 
theater. A lot of initiatives going on at very heightened 
classified levels, down to, you know, just working blue-green 
interoperability.
    There is a series of workshops being undertaken by our 
Deputy Commandant for Combat Development and Integration with 
the Navy, symposiums that are happening out at SPAWAR [Space 
and Naval Warfare Systems Command] LANT [Atlantic] and SPAWAR 
PAC [Pacific] that is looking at the ISR [intelligence, 
surveillance, and reconnaissance] challenges, the command and 
control challenges----
    Mr. Gallagher. Sure.
    General Beaudreault [continuing]. Which will then lead into 
prototyping the capabilities.
    So once the wargaming is done, once these workshops are 
done, they will bring industry together, look at how we can 
prototype to get after any gaps that might be discovered, and 
then work those into our fiscal year 2020 experimental plans to 
enhance our capabilities.
    So I think it is very much a naval-Marine Corps integrated 
op [operation] when we look to the future. And I think we are 
on the right path.
    Mr. Gallagher. And Lieutenant General Dana mentioned sort 
of a creative exercise to think about the battlefield of the 
future and what that means from a logistical standpoint.
    I would actually like to ask General McMillian, from a 
Reserve perspective, are there perhaps creative opportunities 
to leverage some of the cyber expertise or some of the creative 
day jobs our reservists have in support of that future 
battlefield?
    General McMillian. Yes, sir. And thank you for the 
question. We have found out canvassing Reserves out across the 
country that there is a vast amount of interest in operating in 
the cyber domain. Reserves that have done their time in the 
Marine Corps in a particular MOS [military occupational 
specialty], got out, went to school, went into that IT 
[information technology] high-tech world, and are now working 
in industry are very interested in coming back and joining a 
cyber unit, as long as--and here is the caveat--that it is 
attached to an operational unit. They are not so interested in 
sitting in a command and control center, you know, at the hub 
of government and watching threats come in. They want to be out 
on the pointy end of the spear, so to speak.
    So with that, we are standing up, in the process of 
standing up a cyber defense company on the east coast made up 
entirely of Reserves. We will go into IOC [initial operational 
capability] later on in the fall of this year. And we are also 
planning on standing up a cyber defense company on the west 
coast, same thing. But all of those Marines are out in the 
civilian world working in the civilian sector and we hope to 
leverage their civilian skill sets.
    Mr. Gallagher. That is great. I have one more question, but 
it will probably go over, so I will reserve for the second 
round. But appreciate it. Thank you, gentlemen, for what you 
do. Some days I miss the Marine Corps. I don't miss the 
haircut, though.
    Mr. Wilson. Thank you, Congressman. We appreciate so much 
Congressman Gallagher with his Marine heritage, so thank you 
for your service in so many different ways.
    And we now proceed to Congressman Salud Carbajal of 
California.
    Mr. Carbajal. Thank you, Mr. Chair.
    I was noticing your pistol awards there, and I notice that 
Lieutenant General Dana is needing a little bit more field 
time. So I was hoping you other two generals could take him out 
a little bit so we could get to that expert award.
    Generals, I really appreciated the time that you spent with 
me in my office in advance of this hearing. I wanted to ask you 
guys a question regarding aviation. Aviation readiness remains 
a priority for the Marine Corps as the services face a strike 
fighter shortfall due to delays in the Joint Strike Fighter 
program.
    According to the Marine Corps, the key to the future 
readiness of the Marine aviation is transition from legacy 
assets, F/A-18s and AV-8Bs, to the Joint Strike Fighter F-35B. 
What mitigation strategies, if any, does the Marine Corps have 
in the event that the F-35 squadron transitions take longer 
than the expected 2 years or F-35 squadrons continue to 
experience technical delays?
    General Beaudreault. Well, sir, number one, we need to 
increase the depot level throughput of where the F-18s are 
currently. And I think there is also an effort to go out and, 
as the Navy buys F-35C, to take additional Navy assets. We are 
looking actually around the globe of low-hour F/A-18s that may 
have to be brought into the inventory if we found ourselves in 
that situation. And there are some other countries who are 
modernizing their aviation elements as well, which may provide 
opportunity, if we had to do that.
    So we have eyes wide open in that eventuality and it would 
basically be out acquiring other low-hour aircraft.
    Mr. Carbajal. Anyone else?
    General McMillian. Sir, let me just weigh in on that for 1 
minute. I think we are on a--we have reached the bottom of the 
bathtub and that we are on the upswing, particularly with the 
F-18 and its readiness. If you were to ask me a year ago, in my 
Reserve world, I have one F-18 squadron in Dallas-Fort Worth. I 
would have told you we had three up airplanes that were ready 
to deploy. All of that was due to readiness and slowness that 
was coming out--of aircraft coming out of the depot. This year, 
I have seven up airplanes ready to deploy. And I expect to have 
a full complement of 12 deployable combat aircraft by 
midsummer, the end of the summer. So I think we are climbing up 
out of that hole, sir.
    Mr. Carbajal. Thank you.
    Just a couple more questions, perhaps more to Lieutenant 
General Dana. Is energy efficiency a part of the Marine Corps 
discussion when it comes to enhancing readiness and 
modernization? And two, what steps are being taken to protect 
installations from the impact of climate change such as sea 
level rise?
    General Dana. Sir, on the energy, the priority for the 
Commandant is first energy resiliency and then energy 
efficiency. In the past 6 months in my current position, I have 
been to east coast, west coast, overseas. And I would say 
Albany, Georgia, is really the gold standard for energy use in 
terms of the thermal heating that we are using there. Camp 
Lejeune used to be on coal, moving to gas. And by the way, $186 
million in energy resiliency packages across the Marine Corps. 
Overseas, Iwakuni, very resilient. I could go through every 
base, but I would say the one area we do not have the 
resiliency that we need is Camp Pendleton.
    And you talked about global warming. If you look at the 
heat in southern California, when I was there as a lieutenant, 
you didn't need AC [air conditioning]. Now if you go to Stuart 
Mesa housing at Camp Pendleton, the families need AC, but the 
electrical grid needs a $40 million upgrade to get there, and 
we are working that internally to get the funding.
    So energy resilient, we are all on track, with exception of 
Camp Pendleton. Efficiency, you know, due to the last 
administration and this administration, we moved ahead really 
well.
    In terms of what the ACMC [Assistant Commandant of the 
Marine Corps] talked about with Parris Island down in South 
Carolina, I was there a month ago, at 0940 in the morning, at 
high tide. And the road that connects the airfield side of the 
base with the main side of the base, the water was about 2 
inches below the roadway. So we are going to commission a study 
to look at the 30- to 50-year look for Parris Island and other 
coastal bases--Cherry Point is another one, because Cherry 
Point is also at a low altitude--to see the impact of global 
warming, rising sea levels, and what would we need to do to 
make those bases more resilient.
    Mr. Carbajal. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Wilson. Thank you very much.
    And we will proceed now to a second round. A question I 
have for General Beaudreault, what are the Marine Corps plans 
to enhance lethality?
    General Beaudreault. Sir, I think there is a number of 
different programs. Let me start with the infantry. It is the 
fielding of the M27, it is the procurement of ammunition that 
gets us out to some extended ranges. It is bringing a second 
rocket battalion into our artillery. It is the pursuit of 
unmanned aerial systems that have an ability to see and shoot. 
It is the fielding of the F-35s. It is the information warfare 
enablers that will add lethality. It is the command and control 
systems down to the individual Marine level to communicate with 
F-35s that will further add lethality into small unit 
formation.
    So there is a number from our air--from our aviation 
element through our ground combat element, all with an eye 
towards moving out in a direction that our Secretary told us 
to, which is to make a more resilient lethal force.
    Mr. Wilson. And has there been any development on unmanned 
ground vehicles?
    General Dana. Sir, there has. I mean, the Army has done 
some great work here. We are partnering with them in terms of, 
you know, follow vehicles, follow trailers. But in the unmanned 
family, we are looking at air, surface, subsurface, means to 
move from point A to point B. For instance, Johns Hopkins has a 
device called the CRACUNS [Corrosion Resistant Aerial Covert 
Unmanned Nautical System], which is an underwater quadcopter 
that can sit on a littoral floor. You leave it there for awhile 
with a small load, then activate it and move forward. You have 
probably seen it in the Super Bowl and other events. You know, 
you have hundreds and hundreds of drones. This is great pennies 
on the dollar for an investment to give unmanned capabilities 
instead of a human that is even better.
    The other thing we have that we are working on, sir, is 
what they call AACUS [Autonomous Aerial Cargo/Utility System], 
which is pilot in a box, which can be put on a K-MAX [Kaman K-
MAX helicopter] or some other type of legacy helo platform. No 
human being can do terrain flying, and you could fly that from 
point A to point B to deliver supplies. So numerous things that 
we are looking at, sir.
    Mr. Wilson. Well, we are really pleased on behalf of our 
country the different options you are looking into.
    And, Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    This will be just kind of a wrap-up. And maybe we have been 
talking about it, but I don't have a clear picture of it. So to 
any of you that want to jump in, can you tell this committee 
that you will be outfitting planes and other equipment that has 
been inoperable for years--because I visited many of the 
bases--because of a lack of parts and you will be using these 
funds for these needs or will you just continue to buy new 
equipment?
    I just feel that, you know, maybe some of them are beyond 
operable or being used. But I just want to know what percentage 
of the budget you would be using to repair some of this 
equipment that has been sitting there for a long, long time 
because of--and not just the Marine Corps, but each branch of 
the service has the same problem.
    So again, how does a flat O&M request help in this area?
    General Dana. Yes, ma'am. Earlier, I mentioned on our 
depot, you know, about 320, and now I am going to move it, if 
it is okay, to 350, $350 million a year to help with that 
depot-level maintenance. For secondary repairables and our I/O 
[intermediate/organizational] maintenance, we are spending 
about $245 million. What the Commandant is really pressuring us 
to do is we have got 18,000 HMMWVs [High Mobility Multi-Wheeled 
Vehicles], 8,000 MTVRs [Medium Tactical Vehicle Replacements], 
2,500 LVSs [Logistics Vehicle Systems] in the inventory, and 
what we are looking to do, ma'am, is to rightsize that 
inventory.
    And when we come up with that blended fleet for ground 
mobility, which will be a mix of JLTV [Joint Light Tactical 
Vehicle], new platform; recapped [recapitalized] HMMWVs, lower 
number; and LVSs rebuilt, we are going to be smaller, but the 
readiness will be even higher. So we are going to need that 
money at some point, but we just want to make sure we do our 
due diligence first.
    Ms. Bordallo. Thank you. Anybody else?
    General Beaudreault. No. I just say there is a parallel, 
ma'am, on the aviation side as well, and that is the whole 
nature of our backlog at the depots in trying to get high-hour 
airframes through the inspection process and get those back to 
the airworthy fixed-wing aircraft.
    Ms. Bordallo. Thank you.
    General Dana. I'm sorry, ma'am, I forgot to mention one 
thing, if I could. I'm sorry, Rex.
    In our reset for our equipment coming out of the fight in 
Afghanistan and Iraq, we spent $3.65 billion. Seventy-one 
percent of the equipment--shoot, move, and communicate--went 
back to the Marines, but we divested of 21 percent. So 21 
percent we looked at the equipment. As you pointed out, it 
looked terrible, it was not ready or couldn't be refurbished in 
a cost-effective manner, so we got rid of it. Just so you know 
that we are working that process.
    Sorry, Rex.
    Ms. Bordallo. Thank you.
    And thank you, Mr. Chairman, because that was really 
something I wanted to know, and you made it very clear. I thank 
you very much, and I yield back.
    Mr. Wilson. And thank you, Congresswoman Bordallo.
    We now conclude with Congressman Mike Gallagher.
    Mr. Gallagher. I have maybe a bizarre question. We talk 
about readiness often in terms of things, you know, ships, 
weapons, you know, whatever piece of equipment, and less about 
physical and mental readiness.
    I mean, it seems like with the changes to the PFT [Physical 
Fitness Test]--the CFT [Combat Fitness Test] hasn't undergone 
any changes recently, but the PFT standards, correct me if I am 
wrong, PFT standards have gone up on all three domains, 
correct? Which I think is a great move.
    I just would be interested in what inspired that move. And 
correspondingly, why was the Combat Endurance Test at IOC 
[Infantry Officer Course] dropped? Because that seems to move 
in the opposite direction of the overall fitness test 
throughout the entire Marine Corps, if----
    General Dana. If I could start with the IOC.
    Mr. Gallagher. Yeah.
    General Dana. What we found is that the standards that were 
implemented at IOC were done by a local commander, you know, 
based on his experience, but were breaking people. And I 
spent--I don't have as much infantry time as General 
Beaudreault, but I spent 3 years in an infantry battalion, and 
you have got a lot of time, same--is we are putting 150, 160 
pounds on Marines and breaking them at a very young age. So as 
you look at a realistic combat environment on the load that we 
want to put on a Marine, it is not going to be that kind of 
weight. So why would we test to that level of weight if that is 
not how we are going to actually implement and put force----
    Mr. Gallagher. Sure. Can I just follow up on it? Was it not 
true that attrition was actually not that high due to the 
Combat Endurance Test? I just don't know the data. You would 
know the data better than I.
    General Dana. We will get to the data, but the attrition--
because I am on the Commandant's task force for Marines United. 
I am the deputy to the Assistant Commandant on that. And we 
really looked at those numbers, and we were breaking people.
    Mr. Gallagher. Okay.
    General Dana. And the attrition rate was very high, which 
had some downstream effects on our amount of infantry officers 
that we were bringing into the fleet.
    Mr. Gallagher. Sure.
    General Beaudreault. And I think the only thing I can add 
to that, sir, is that I am not sure that that test in and of 
itself was the standalone metric on whether someone had the 
potential to be an infantry officer in the Marine Corps. So it 
just became another indicator, vice the indicator on whether 
they were going to succeed or not as an infantry officer.
    Mr. Gallagher. Sure. I appreciate that. I would welcome--if 
it is not publicly available, I'm sure I could do my own 
research, but whatever you can share with me, I am interested 
in. Thank you.
    [The information referred to can be found in the Appendix 
on page 58.]
    Mr. Wilson. Thank you very much, Congressman Gallagher.
    And I thank each of you for being here today. Your service 
is so much appreciated by the American people.
    And there being no further questions, we are adjourned.
    [Whereupon, at 5:33 p.m., the subcommittee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             March 6, 2018

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2018

=======================================================================

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 6, 2018

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    General Beaudreault. In March 2008, the Marine Corps held a 
production capability competition consisting of seven offerors: five 
from the United States, one from Germany, and one from Belgium. The 
Marine Corps received and evaluated ten proposals and thirty Infantry 
Automatic Rifle (IAR) (known as the M27) product samples. After 
evaluations, the Marine Corps awarded multiple contracts to Colt (US), 
Fabrique Nationale Herstal (Belgium), and Heckler & Koch (Germany). 
After a second round of evaluations, the Marine Corps selected Heckler 
& Koch (H&K) for the initial production contract. During this contract, 
H&K delivered 6.5K rifles between 2008 and 2012 at a cost of 
approximately $18M for the rifles and associated parts and equipment. 
For the competition and associated activities, the Marine Corps spent 
approximately an additional $9M, for a total acquisition cost of 
approximately $27M.
    On February 10, 2017, the Marine Corps publically released a 
Request for Information (RFI) to determine industry's ability to supply 
every infantry squad member with the IAR. The RFI sought price 
estimates from industry for IAR equivalent rifles and ancillary 
components. H&K, Fabrique Nationale Herstal, and Colt (the original 
2008 competitors), as well as five other American companies, responded.
    On careful consideration and analysis of the time delay and 
monetary costs that would result from awarding to a new source, the 
Marine Corps made the decision to proceed with a sole source 
procurement from the original production source. Based on previous 
acquisitions and the historical data from the IAR program, if the 
Marine Corps were to seek a source other than H&K, we estimate a delay 
of at least four years to deliver the M27. Awarding to H&K will allow 
the Marine Corps to begin fielding this year, as we pursue the critical 
objective of increasing lethality of the Marine Air Ground Task Force 
Ground Combat Element, per the Marine Corps Operating Concept, our 
vision for Force 2025, and most recently, the challenges delineated in 
the National Defense Strategy. Given this situation, we assess that a 
several-year delay, which can be prevented by awarding to H&K, is 
unacceptable, as we seek pathways to more rapidly equip the next 
generation Marine Corps.
    Further, based on the responses to our February 2017 RFI, the 
Marine Corps also determined that, due to repeated system testing and 
associated factors, awarding to a new source, even if commercially 
available, would result in substantial cost duplications that are 
unlikely recoverable through competition due to costs from duplicating 
key source selection tests and repurchasing 6,500 rifles.
    The low-end estimate ($5,792,483.00) assumes duplicating evaluation 
testing, operational testing, magazine and ammunition compatibility 
testing, program support, new equipment training and fielding, and 
repurchasing spare parts and gages, and calibration services. It 
assumes that a competition results in awarding to H&K, and a total 
field of four competitors, which is an unrealistic number, given that 
seven vendors responded to the RFI. The following table is a breakdown 
of the low-end estimate:

 
----------------------------------------------------------------------------------------------------------------
                                       Category                                                 Est. Cost
----------------------------------------------------------------------------------------------------------------
First Round Evaluation Testing                                                          $429,140
----------------------------------------------------------------------------------------------------------------
Test Article Weapons (10 each from 4 vendors)                                           $136,070
----------------------------------------------------------------------------------------------------------------
Second Round Evaluation Testing                                                         $1,009,185
----------------------------------------------------------------------------------------------------------------
OT Test Article Weapons (24 each)                                                       $67,522
----------------------------------------------------------------------------------------------------------------
OT                                                                                      $1,850,095
----------------------------------------------------------------------------------------------------------------
Other Testing (Ammunition and Magazine Compatibility                                    $714,440
----------------------------------------------------------------------------------------------------------------
Spare Parts and Gages                                                                   $582,396
----------------------------------------------------------------------------------------------------------------
Calibration Costs                                                                       $91,348
----------------------------------------------------------------------------------------------------------------
Program Support                                                                         $492,738
----------------------------------------------------------------------------------------------------------------
New Equipment Training/Fielding                                                         $419,549
----------------------------------------------------------------------------------------------------------------
TOTAL                                                                                   $5,792,483
----------------------------------------------------------------------------------------------------------------


    The mid-range estimate ($23,801,290.00) assumes the same 
duplication measures as the low estimate, but includes repurchasing 
6,500 IARs. The high estimate ($24,486,557.00) assumes the same 
duplication measures as the mid-range estimate, but includes costs 
associated with purchasing and testing new prototypes. These cost 
estimates reflect historical costs and contain no inflation 
adjustments.
    The Request for Proposal was released on January 25, 2018 for a 
quantity of up to 15,000 rifles. The budget exhibit per the President's 
Budget FY19 provides for the first year procurement of 6,567 rifles.   
[See page 11.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MR. GALLAGHER
    General Dana. The Combat Endurance Test (CET) does not exist in the 
T&R Manual and was originally introduced as a tool to measure the 
retention of knowledge, skills, and fitness obtained at the BOC.
    In November 2017, the Commandant of the Marine Corps (CMC) approved 
modifications to the IOC POI so as to reflect operational demands and 
to meet infantry officer production goals. He further guided that 
formally established T&R standards were not to change; emphasizing that 
the quality of instruction was not to be degraded.
    The Combat Endurance Test (CET) reverting to a leadership 
assessment tool, as it was prior to 2012. First conducted in 1994, the 
CET served as an initial assessment tool. From 1994 to 2012, CET 
failures were permitted to continue training. From 2012 to 2017, the 
CET was modified to a pass/fail event and required for entry into the 
IOC POI. This change reflected operational demands during the 202K end 
strength surge. In November 2017, the CMC approved the removal of the 
CET's pass/fail requirement, thus reverting it back to a leadership 
assessment tool as originally intended.
    The number of tactical movements (hikes) conducted by IOC students 
has not changed. Students still perform nine movements. Performance on 
each of these hikes still inform a student's overall evaluation.
    However, the graduation requirement concerning hikes has been 
modified from passing five of the first six hikes, to now passing the 
first three hikes. The modification was made to more closely tie the 
hike graduation requirements to formal Training and Readiness 
standards.
    Modifications were also made to the Weapons Platoon (125 pounds) 
and Weapons Company (150 pounds) hikes. These movements are not tied to 
T&R standards, but are used to move students to live fire ranges in 
which the weapons systems are employed. These hikes were previously 
conducted as administrative forced marches in which each student 
carries the full load in single files marching down the side of the 
road. Both movements are now conducted as tactical displacements where 
one section sets the weapons system up to notionally cover the movement 
of another section as it tactically bounds forward to better replicate 
the weapons employment in the operating forces. Each Marine is now also 
partnered with one other Marine to trade off carrying of the extra 
weapon components to better replicate the manner in which the weapons 
are carried in the operating forces.   [See page 20.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MRS. MURPHY

    Mrs. Murphy. I represent a district in central Florida that is home 
to Team Orlando, the premier hub for modeling, simulation, and training 
for all the services, and home to the Marine Corps' Training Systems 
Command or TRASYS.
    I was encouraged to find strong support for simulation technology 
and immersive training systems in your written testimony. I want to ask 
all of you--how would you describe the value of advanced simulation 
training systems, and where would you want to make additional 
investments in simulation and training technology in the future?
    Also, it seems that increased investment in the advanced simulation 
training systems may also require upgrades and enhancements to your 
force-on-force training systems to provide more realistic training. 
Would you find increased funding useful to modernize the Wireless 
Training Network and acquire additional I-TESS II Man-worn Detection 
Systems to provide instrumentation and simulation capabilities for 
battalion-level training at Twentynine Palms?
    General Beaudreault, General McMillian, and General Dana. Advanced 
simulation training systems have been extremely valuable in the 
training of our Marines, and we envision increased use of simulators 
and simulations as we prepare for future conflict.
    Advanced simulation training systems allow Marines to overcome 
numerous challenges and limitations to training such as safety and 
environmental restrictions, resource and time constraints, and the 
inability to physically train in the unique environments to which they 
may be deployed.
    Use of advanced simulation training systems also allows for 
detailed observation of Marines while performing a task, and 
facilitates productive after-action reviews and documentation of task 
performance. The ability to review and remediate performance, and to 
document proficiency is crucial in determining whether a task has been 
performed to standard so that we can ensure Marines are properly 
trained on mission essential tasks.
    The use of advanced simulation training systems also allows for 
mastery of basic skills prior to live fire execution with multiple 
``sets & reps'' resulting in more effective and efficient use of 
limited and costly ammunition, and the availability of aircraft 
sorties. Additionally, advanced simulation training systems allows 
Marines to execute potentially hazardous missions such as ``danger 
close'' supporting arms missions with simulated artillery and close air 
support with no risk to safety.
    We would seek additional investments in a wide range of advanced 
simulation and training technologies as we modernize our force and 
prepare for future conflict.
    As the Nation's forward deployed expeditionary force in readiness, 
tasked to be ``most ready, when the Nation is least ready,'' our 
mission, and the training it requires is unique among the armed forces.
    While our current training systems were adequate for past 
conflicts, the 21st Century battlefield will be more dynamic and lethal 
than in the past. Multi-domain battle with next-generation weapons and 
advanced technology fielded by near-peer enemies will challenge every 
aspect of our warfighting capability. As we modernize our doctrine, 
organization, and equipment we must also see to the preparation of our 
Marines for the rigors of the modern battlefield. Advanced synthetic 
simulation training systems will afford us the ability to replicate the 
complex and dynamic nature of the modern battlefield to a high degree 
of fidelity, exposing our Marines and leaders to the full gamut of 
threats, environments, and challenges they must overcome in future 
battle. The systems and technologies required to provide this vital 
training capability will require significant, programmed, and sustained 
investment over time in order to be successful. The combat training and 
readiness of the individual Marine are top among the Corps' priorities, 
and these are the systems required to accomplish the task.
    In the near term, PMC funding for training devices and simulators 
for our current inventory of equipment (e.g., the Amphibious Assault 
Vehicle (AAV), Light Armored Vehicle (LAV), small arms and crew served 
weapons, and other systems) is required in order to support ongoing 
training for units preparing to deploy in the near future. Many of 
these systems are nearing their life expectancy, but we must refresh 
hardware and software in order to maintain the ability to train 
Marines. Some of these systems are used as gateways to live fire 
training events, meaning the simulators and simulations are used to 
ensure target acquisition and firing skills are sufficient to ensure 
safety and reduce the cost of live fire training. Our current training 
systems were designed as stand-alone systems due to the fact that at 
the time the technology was not mature enough to support our networking 
requirements. Capability refresh is needed in order to provide LVC-TE 
interoperability between current and future systems to increase the 
capability for our units to train to standard in accordance with our 
maneuver warfare doctrine.
    Future requirements further necessitate our ability to link 
training systems in order to overcome many of the obstacles to training 
previously mentioned. To address these training challenges the Marine 
Corps has developed the Marine Corps Synthetic Training Environment 
(MCSTE) concept, and is executing a disciplined, planned approach for 
acquiring an enterprise live, virtual, constructive training 
capability. In October 2017 we began a Material Solution Analysis as 
the first step in building an LVC-TE Program of Record. We are teaming 
with the Johns Hopkins University Applied Physics Lab in order to 
conduct an Alternative of Analysis (AOA) to determine the best approach 
for a developing an acquisition strategy to ensure that future advanced 
training systems are integrated and interoperable as an enterprise 
System of Systems. Additionally, we are partnering with the U.S. Army's 
Synthetic Training Environment Cross Functional Team to enable ``Best 
of Breed'' opportunities with each of our ongoing tactical 
demonstrations. The resulting LVC-TE will provide a persistent, easy to 
use, and affordable distributed training capability that will enable 
our warfighters to fight and win in the future.
    Would you find increased funding useful to modernize the Wireless 
Training Network and acquire additional I-TESS II Man-worn detection 
systems to provide instrumentation and simulation capabilities for 
battalion-level training at Twentynine Palms?
    General Beaudreault, General McMillian, and General Dana. Yes, 
increased funding would allow us to pursue our MCSTE capabilities at an 
accelerated pace. Conceptually the MCSTE would encompass the entirety 
of our live, virtual, and constructive training capabilities from live 
fire ranges and training areas, to fully immersive training 
environments, and synthetic training environments such as simulators 
and simulations that could be seamlessly connected over secure wireless 
networks.
    In order to support the MCSTE concept the Marine Corps has 
identified the need to implement a wireless training network that would 
cover the boundaries of all of our training ranges. The wireless 
training network needs to support distributed training simulations and 
exercises, and be able to provide position location and identification, 
range control and safety constraints, provide exercise control, 
replicate both friendly and enemy command and control systems, as well 
as cyber and information warfare capabilities, and provide for high 
fidelity after action reviews. The wireless training network also needs 
to be able to connect distributed forces participating in an exercise 
from geographically distant locations. The wireless training network 
also needs to provide Marines with the ability to access and retrieve 
range information, map data, planning products, doctrinal publications, 
training and education materials on approved devices.
    Our current Force on Force Training Systems (FOFTS) program 
includes the Instrumented Tactical Engagement Simulation System 
(ITESS). While ITESS-II meets our near term requirements, we are 
upgrading our Force on Force training capabilities through the 
procurement of ITESS-III which will provide the next generation of 
infantry force on force training capability. Instrumentation of combat 
vehicles will be provided by the Combat Vehicle-Tactical Engagement 
Simulation System (CV-TESS). The Special Effects Small Arms Marking 
Systems (SESAMS), which is a ``paintball-like'' capability, provides a 
more intense force on force experience for close quarters combat 
training. Additionally, the Marine Corps will field a new augmented 
reality fire support training capability known as the ``Mobile Fire 
Support Trainer'' (MFST).
    While we are being adequately funded for the requisite sets of 
ITESS, additional funding would support our further research into the 
range-extended wireless network to support our robust training 
requirements, as well as updating and integrating our FOFTS to provide 
all of the simulation capabilities we seek, with AAR capabilities into 
a comprehensive training system.
    Mrs. Murphy. Lieutenant General Beaudreault, the Marine Operation 
Concept states that the Marine Corps must ``develop electronic warfare 
fires via a wide variety of MAGTF ground and air platforms.'' The 
creation of electronic warfare companies within the MEF information 
group encouraged me, but I am concerned about the lack of equipment 
necessary to make these units combat effective.
    Whereas our adversaries Russia and China have extensive, long-
range, and very capable air and ground-based jammers designed to target 
broad swaths of the electromagnetic spectrum and are actively 
integrating this electronic warfare capability into their maneuver 
units, the Marine Corps has only the CESAS II (Communication Emitter 
Sensing and Attacking System), a small vehicle-mounted communications 
jammer with limited range.
    What is the Marine Corps doing to bridge this capabilities gap and 
give our Marines the capabilities they need to succeed on the modern 
battlefield against a peer or near peer adversary?
    General Beaudreault. The Marine Corps' effort to close technology 
gaps and improve operational capability has been ongoing for several 
years now. Jamming capability is but one part of the broader MAGTF 
Electronic Warfare (EW) modernization effort. We are well postured to 
take advantage of EW technological developments and are rapidly 
increasing capacity (personnel and materiel) in this area. The MAGTF EW 
effort seeks an integrated system of distributed, platform-agnostic EW 
capabilities, both manned and unmanned. These assets will be fully 
networked and collaborative, and will provide the MAGTF the ability to 
achieve electromagnetic spectrum (EMS) superiority. MAGTF EW will unite 
air, ground, and space-based technologies to ensure collaborative, 
efficient, and effective operations in the electromagnetic operating 
environment (EMOE).
    Specific to ground-based jamming, the Marine Corps currently 
employs the Communication Emitter Sensing and Attacking System Two 
(CESAS II) as its sole, persistent, vehicle-based, ground mobile 
Electronic Attack asset. This system provides the commander the ability 
to detect, deny, and disrupt threat communications. CESAS II is 
supplemented by the Radio Reconnaissance Equipment Man-Packable 
Electronic Attack System (RREMPEAS), Modi (which provides on-the-move 
counter-UAS capability), Counter Radio-Controlled Improvised Explosive 
Device (RCIED) Electronic Warfare (CREW) Vehicle Receiver/Jammer (CVRJ) 
(providing vehicle-based Counter RCIED) capabilities, and Thor III, 
providing man-packable C-RCIED capabilities. We are in the process of 
purchasing 800 Modi II systems to replace our aging Thor III systems.
    As Marines typically fight within the Marine air-ground task force 
construct, it's necessary to mention the Intrepid Tiger Two (IT-II) 
family of systems. IT-II provides airborne electronic warfare support 
and electronic attack from a variety of aircraft including AV-8B 
Harriers and UH-1Y Venoms. Plans are underway to integrate current and 
future EW technology into additional Marine Corps aircraft.
    For the future, we are initiating a new MAGTF Ground EW Family of 
Systems program that will enable a wider variety of advanced mission 
sets comprising Attack, Support, and Protect (ASP), to include directed 
energy weapons. This program will be the cornerstone of Marine Corps 
ground EW, supporting units down to the Squad level, enabling 
electromagnetic spectrum (EMS) superiority in the future operating 
environment. It will provide electronic attack (EA) against Command and 
Control systems, communication networks, radar, and adversary Position, 
Navigation, and Timing (PNT) in addition to supporting Electro-Magnetic 
Cyber Attack and Military Information Support Operations. ASP will 
provide an umbrella of protection: C-RCIED; counter-unmanned aircraft 
system; counter command, control, communications, computers, 
intelligence, surveillance, and reconnaissance/targeting; and counter-
proximity munitions in addition to electronic awareness, indications & 
warning, and emitter homing for kinetic and non-kinetic targeting. This 
new start initiative will replace legacy CREW systems.
    Lastly, in support of these programmatic efforts, we are currently 
conducting a MAGTF EW working group. This effort will ensure that 
capability developers (requirements and resource sponsors) and Marine 
Corps Systems Command are sufficiently informed by Marine Corps 
Operating Force representatives, and the Intelligence and Science & 
Technology communities to ensure that investments will adequately 
address current, emerging, and future threats.
    We would be happy to follow up with you and your staff in a 
classified setting for a more thorough discussion on the details of the 
MAGTF EW effort to include ground, aviation, and space-based 
technologies.
    Mrs. Murphy. Lieutenant General Beaudreault, the National Defense 
Strategy places an emphasis on ``[r]ecruiting, developing, and 
retaining a high-quality work force,'' a point with which I thoroughly 
agree and one that was echoed in your written testimony. However, in 
2015, two authors published a paper showing a ``statistically 
significant and quantitatively meaningful decline in the intelligence 
of Marine Officers from 1980 to 2014.'' What has the Marine Corps done 
since then and what is it doing now to ensure the officers it 
commissions are of the highest quality?
    General Beaudreault. The Marine Corps Recruiting Command maintains 
and upholds the challenging standards of officer recruitment through a 
number of processes that ensure only the highest quality of character 
and intellect are commissioned as a Marine Officer. Over the past five 
years, the quality indicators have remained well above the minimum 
standards regarding intelligence, physical fitness, and academic 
potential. The process to become an officer is, and will continue to 
be, an arduous and difficult endeavor that requires an interested 
candidate to pass a medical qualification, complete a thorough 
application, be selected by a board of Marine Officers, and 
successfully complete a summer at Officer Candidate School, one of the 
most challenging entry level schools in the military. Also, there are 
service academies and Naval Reserve Officer Training Corps units who 
devote four years to the development of future Marine Officers prior to 
their graduation from university and commissioning. Regardless of their 
commissioning source, every Marine Officer must be selected on a 
competitive selection board that is seated by Majors and above. 
Although the minimum requirement to become an Officer is a 2.0 Grade 
Point Average (GPA), 235 Physical Fitness Test (PFT), 22 American 
College Test (ACT), 1000 Scholastic Aptitude Test (SAT), and 74 Armed 
Forces Qualification Test (AFQT), the average quality indicators over 
the past five years have been well above those minimums and will 
continue to improve.

                                      FY13-FY17 Accession Quality Standards
----------------------------------------------------------------------------------------------------------------
     GPA Average            PFT Average            ACT Average            SAT Average           AFQT Average
----------------------------------------------------------------------------------------------------------------
3.2                    272                    26                     1182                   85
----------------------------------------------------------------------------------------------------------------


                                  [all]
</pre></body></html>
